I

Case 120503 CLEfm OF THE APPELLATE COURTS Filed 2021 AH, Jl PM 1:36

MANDATE
r
!_
SUPREME COURT,

Appellate Court No.

18-120503-S

District Court No.

17CR1783

ss,
STATE OF KANSAS,

:

The State of Kansas, to the District Court within and for the County of SEDGWICK
in the State of Kansas, Greeting:
WHEREAS, In a certain criminal action lately pending before you, wherein STATE OF
KANSAS, appellee, and, CORBIN J. BREITENBACH, appellant, a judgment was rendered by you against
the appellant from which judgment appellant prosecuted an appeal in the Supreme'Court within and for
the State of Kansas;

AND WHEREAS, on March 26, 2021, on consideration of the appeal, it was. ordered;and
adjudged by the Supreme Court that the judgment of the district court be affirmed.
An attested true copy of the. opinion is attached.

YOU ARE THEREFORE COMMANDED, that without delay you cause execution to be
had of the judgment of the Supreme Court, according to law.
Costs
Paid Fees of Clerk of the Appellate Courts

$ waived

Other Costs........................................... „..
Total

$
I WITNESS my hand and the seal, of the Supreme Court affixed
i hereto, at my office, in the City of Topeka,
2021 .

DOUGLAS T. SHIMA, Clerk of the Appellate Courts
MANDATE RECEIVED BY CLERK
TRIAL JUDGE NOTIFIED

Date:
• i

:

*

*■

State v. Breitenbach, 2021 Kan. LEXIS 33

3. Requests for the appointment of experts are to be measured by the requirements of the due
process test of fundamental fairness.

Copy Citation

4. Fundamental fairness does not require the court to furnish the defendant with equal amounts of
funds and services as are within the reach of the State.

Supreme Court of Kansas

5. Defendants do not have an absolute right to independent testing on mere request, but must
make a specific showing of need, i.e. that it is necessary to an adequate defense.

March 26, 2021, Opinion Filed
No. 120,503

6. To warrant substitute counsel, a defendant must show justifiable dissatisfaction with appointed
f*21 counsel. When the defendant's dissatisfactions emanate from a complaint that cannot be
remedied or resolved by the appointment of new counsel, the defendant has not shown the
requisite justifiable dissatisfaction.

Reporter
... 2021 Kan. LEXIS 33 » 12021 WL 1150210
• STATE OF KANSAS, Appellee, v. CORBIN J. BREITENBACH, Appellant.

7. The defendant bears the burden of establishing the district court abused its discretion by
refusing to appoint new counsel.

Prior History:

8. Our state and federal Constitutions guarantee criminal defendants the right to effective
assistance of counsel, but they do not guarantee the defendant the right to choose which attorney
will be appointed to represent them.

1*11 Appeal from Sedgwick District Court; JOHN J. KISNER JR., judge.

9. If a conflict arises from counsel's refusal to introduce truthful, relevant evidence because they
believe their client is guilty, newly appointed counsel can be necessary. But a defense attorney's
personal belief in the guilt of their client does not immediately necessitate newly appointed
counsel when that defense attorney continues to competently conduct a constitutionally adequate
defense.

Disposition:
Affirmed.

10. The appointment of standby counsel for a pro se litigant rests within the sound discretion of
the trial court.

Core Terms

c

district court, testing, appointment, fingerprint, standby counsel, argues, exculpatory, swabs, pro
se, samples, investigate, abused, adequate defense, apartment, collected, retested, blood, prong,
trial court, dissatisfaction, identification, profile, exam, conflicting interest, new counsel,
probability, aggravated, expedition, incorrect, injuries

<■ Syllabus

11. The district court's determination of a Brady violation is a legal question which is reviewed
de novo with deference to T*31 any factual findings. But the district court's denial of the
defendant's motion for new trial is reviewed under an abuse of discretion standard.
12. There are three components or essential elements of a Brady violation claim: (1) The
evidence at issue must be favorable to the accused, either because it is exculpatory, or because it
is impeaching; (2) that evidence must have been suppressed by the State, either willfully or
inadvertently; and (3) the evidence must be material so as to establish prejudice.
13. Delayed rather than absent disclosure of exculpatory information might qualify as a Brady
violation, depending on whether the defendant can establish prejudice due to his inability to use
the Brady material effectively.

BY THE COURT
1. The authorization of expert services for an indigent defendant in a criminal trial lies within the
discretion of the district court. The decision will not be disturbed unless the defendant shows
abuse of the trial court's discretion which results in prejudice to his substantial rights.
2. When considering whether to grant a self-represented defendant's request for an expert, the
district court must first determine that the defendant is financially unable to pay for the services,
and then find that the requested services are necessary to an adequate defense.

TD

r
Counsel: Clayton J. Perkins, of Capital Appellate Defender Office, argued the cause and was on
the briefs for appellant.
Lesley A. Isherwood, assistant district attorney, argued the cause, and Derek Schmidt, attorney

general, was with her on the brief for appellee.

on any patient. Before completing f*61 the surgery and while consulting with Loganbill, Dr.
Craddock was able to collect the remaining necessary swabs.

Judges: WILSON, J. BEIER, J„ not participating. MICHAEL E. WARD, Senior Judge,
assigned.lM"

Physical evidence was photographed, recorded, and collected from Brandyberry's apartment that
same morning. Investigators found blood throughout the apartment, including in the bathroom,
the bedroom where L A. had been sleeping, and the balcony. They also found blood on the door
and privacy wall of Brandyberry's balcony. Samples were collected from all these locations for
the possibility of subsequent testing, and a fingerprint was lifted from Brandyberry's balcony
door. Inside the apartment, investigators found what they presumed to be semen stains on the
couch and collected samples. The investigators clarified that the stains could not be confirmed to
be semen without additional laboratory testing.

Opinion by: WILSON

'

Opinion
The opinion of the court was delivered by

(

Wilson, J.: This is a direct appeal of criminal convictions after jury trial for attempted | *4] ,
capital murder, aggravated criminal sodomy, and aggravated burglary. We affirm.

Facts and Procedural Background
Late one evening, the parents of L.A. dropped her off, along with her younger brother, at the
apartment of a friend, Elizabeth "Lisa" Brandyberry. L.A. was seven years old at the time. It was
around 10 p.m. by the time the children arrived, so everyone immediately went to bed.
Brandyberry was wakened around 2:30 a.m. to the sound of L.A. crying in another bedroom.
When she went to.investigate, Brandyberry saw blood everywhere. She called,911.
L.A. was taken to the hospital for medical care and to undergo a sexual assault exam by trained
Sexual Assault Nurse Examiner (SANE), Dana Loganbill. L.A. was able to tell Loganbill that she
was at the hospital because she had been awakened by a man who looked kind of like her dad but
without a beard or mustache and that the man choked her and did something to her private parts.
L.A. told Loganbill she might have seen the man before but she did not know where.
Loganbill observed that L.A. was clearly distressed and in pain but also seemed to be dissociated
at times, particularly during the genital exam. During the head-to-toe exam, Loganbill_[^J_noted
mahy injuries that she classified as remarkable. In particular, the strangulation injuries caused
petechine all across her face and ears, throughout her scalp, along her neck, and in her mouth and
throat. In relation to strangulation, petechiae occurs when external pressure is placed on the neck
which causes difficulty breathing and difficulty for blood to leave the head and neck. This causes
overfill and distention in the capillaries, which causes them to burst and produce red spots.
Loganbill had never seen that much petechiae in a child.
Before moving to the genital examination, Loganbill had to administer pain medication to LA —
which is not standard—because of the severity of the injuries she felt she would encounter and
because even movement was hurting L.A. Loganbill was only able to do partial external swabs
before halting the exam because of the severity of the injuries. Loganbill decided to call in an
OB/GVN to assess the injuries before continuing the exam.
Dr. Teresa Craddock, an OB/GYN, assessed L.A.'s injuries and testified that although she had
worked with SANE/SART before in pediatric cases, she had never seen this severe of an injury

At this point, police had few suspects save for L.A.'s father, who officers interviewed that
morning and who voluntarily turned over DNA and clothing samples when requested. Another
individual of interest was Brandyberry’s boyfriend, who was banned from die apartment by a
PFA order, and who had broken into Brandyberry's apartment twice before. This individual was
never contacted. f*71
During the investigation, Detective Jason Waite, the lead detective assigned to L.A.'s case,
contacted Sedgwick County Regional Forensic Science Center (the Science Center) and
requested that the processing of the collected evidence be made a priority. Sarah Geering, a
forensic scientist at the Science Center, was able to identify sperm cells on some of the samples
and moved forward with testing two of them—the anal swab and the swab from the labia majora
and clitoris. Geering obtained a sperm cell fraction from the latter, but it contained only a partial
DNA profile and was deemed to be of no comparative value.
The anal swab, however, provided more useful scientific evidence. Geering found a DNA
profile—which she uploaded to the Combined DNA Index System (CODlS) database to check
against existing profiles linked to known individuals—to be a mixture of two individuals. The
major contributor to that DNA profile was consistent with that of a previous Kansas offender,
Corbin Breitenbach, while the minor contributions were attributable to L.A. Geering's statistical
calculation showed that the probability of selecting an unrelated individual at random who would
exhibit a profile that is the f*81 potential major contributor to the profile obtained from the sperm
cell fraction of the anal swabs is approximately 1 in 107 octillion. When questioned about
prioritizing or expediting the testing, Geering stated that she did not-have any concerns about the
speed with which her analysis was conducted.
A few days later, Detective Waite interviewed Jessica Fowler, whom Breitenbach had been
dating for about six weeks. Fowler lived in the apartment building adjacent to Brandyberry's and
told Waite that Breitenbach had stayed there the night of L.A.'s assault. According to Fowler, she
picked Breitenbach up from a bar around 1 a.m. that morning and they arrived back at her
apartment by 1:30 a m.
Upon returning home, Fowler let her dog out and sat on the steps of her apartment building while
Breitenbach went for a run. Approximately 20 to 25 minutes later she saw Breitenbach walking
back up the same way he came, and they went inside together. Fowler went straight to bed while
Breitenbach went to the bathroom first but did not shower. Fowler remembers Breitenbach being
sweaty as if he had been on a run like he said, but that he had not changed, he was not dirty, and

she did not see blood on 1*91 his clothes.
L.A. was taken to the Child Advocacy Center to determine if she could identify her attacker from
a photo lineup. One at a time, she was shown photos and asked if she recognized them. On the
third photo, L.A. pointed to Breitenbach and said, "That's him."

c

Breitenbach was arrested and taken to the Sedgwick County Jail. More evidence, including a pair
of Recbok tennis shoes, was collected from the house he shared with his mother and
grandmother. The Reebok shoes were submitted to the Science Center for testing and found to
contain a blood stain with a DNA profile consistent with L.A. The morning after his arrest,
Breitenbach made a call to his mother and grandmother during which he told them he was a
monster, that it was all true about him, that he was dangerous and could not control himself, that
he hurt "her" so bad, and that he wanted forgiveness from them. The majority of the phone call •
recording was admitted and entered as evidence.
Breitenbach was charged with attempted capital murder, or in the alternative, rape, aggravated
criminal sodomy, and aggravated burglary. At the preliminary hearing, Breitenbach was
represented by Eli O'Brien from the public defender's office, f* 101 A few months later, O'Brien
notified the court that he was leaving the public defender's office and attorney Jason Smartt
stepped in to represent Breitenbach. Breitenbach was unhappy about the transition but did not
object to it.
Breitenbach subsequently filed multiple pro se motions, including a "Motion to Compel Judicial
Notice of ineffective Assistance of Court Appointed Trial Counsel" as well as a "Motion for
Substitution of Attorney." His general complaints in the former included allegations that the
public defender's office attempted to pressure or intimidate him into accepting a plea deal and
that the constant switching of attorneys unduly delayed his trial. In the latter motion, he asked for
relief from "ineffective counsel" and claimed there was a conflict of interest between himself and
the entire public defender's office. His complaints against Smartt included not meeting with
Breitenbach to discuss the merits of pro se motions, lying to the court about discussing motions
with Breitenbach, and telling Breitenbach that the indigent defense budget would not cover
additional DNA testing. Breitenbach argued that because Smartt would not seek expert analysis
of the DNA evidence 1*111 in an effort to conserve the indigent defense fund, it presented a
conflict of interest with the whole public defender's office.

c

In a hearing on the motion, Breitenbach argued that the public defender’s office's desire to save
money was directly at odds with its ability to provide him with an adequate defense and that there
was "extremely important" material that was yet to be tested. Breitenbach also claimed that
Smartt had lied to him about what his charges were, but when asked if he understood the charges
against him and the potential sentence in the case, Breitenbach said that he was completely aware
of them. Eventually the district court ruled that while it understood there could be disputes over
what is important and what is not important, it found there was no valid ineffective assistance of
counsel or conflict of interest claim. The district court further found that there was no
fundamental right or requirement that additional testing be done if there was already a forensic
test done by the Science Center and having a public-funded defense does not equate to an open
checkbook for testing.
Just a few days later, Breitenbach filed another pro se motion, this time for "Reappointment f*

1*121 of Counsel,” in which he stressed to the court that there was no trust between himself and
Smartt and that there had been a breakdown of communications. The motion alleged that after
the prior hearing, Smartt had told Breitenbach, (1) "Just because I think your [sic] guilty doesn't
mean I can’t represent you,” (2) "The Public Defender's Office doesn't want to waste any money
on your case," (3) "I’m not even going to ask," (4) "I've known Judge Kisner a long time and he
will never make me get off your case," and (5) "Nothing you do is going to change what 1 plan to
do with your case."
The district court heard the motion. At this motion hearing, Breitenbach reiterated many of the
same arguments made in his prior motions, including his concerns that the public defender’s
office would not pursue additional DNA in an effort to save money when they 'just personally
believe[d]" that it would not be productive. Further, he believed it was unethical or a breach of
confidentiality for the office to contact his family and ask for them to pay the $4,000 required for
testing. One of the new claims Breitenbach added in this hearing was that he believed the DNA
testing was done in a rush.
The district f* 131 court then cleared the courtroom of everyone except Breitenbach, court staff,
and those with the public defender's office. Breitenbach Was able to articulate that he believed
additional testing would completely exclude him from all DNA results and that the current DNA
results were false. In addition to retesting the vaginal and anal swabs, he also wanted testing to be
done on fingernail scrapings, blood found on L.A., any swabs taken from L.A.'s neck, the
potential semen stains from the couch, fingerprints lifted from the scene, and L.A.'s clothes.
Breitenbach also reiterated that at the preliminary hearing, L A. did not identify him and that
there was certain evidence and statements L.A. made that implicated her dad. When asked by the
court if there was some dispute with Smartt about that evidence coming in at trial, Smartt
responded that there absolutely was a dispute but did not elaborate. Breitenbach argued that it
was neglect on the part of Smartt not to pursue a very valid material defense strategy and that
there was an "extreme disagreement" between himself and Smartt, partially because his theory of
defense was that the dad was involved.
When asked for specific facts that showed f* 141 a breakdown of communication, Breitenbach
enumerated: (1) The statement that the public defender's office would not cover the $4,000 for
DNA analysis; (2) Statements from Smartt along the lines of "just because I think you're guilty
doesn't mean Tcan't represent you"; and (3) Smartt has known Judge Kisner a long time and "he
would never make [Smartt] get off [Breitenbach’s] case."
The district court asked Breitenbach to clarify what his basis was to believe that there was a
problem with the testing that had already occurred because there needed to be a reason to double
check rather than just a "fishing expedition." Breitenbach expressed that he believed the rushed
nature of the testing combined with the fact that it was not collected by a certified SANE/SART
examiner meant that if was not a high quality test. He supported this with the fact that of the two
tests done, one of them came back inconclusive. When given the opportunity to speak, Smartt
had nothing to add.
Once everyone was back in the courtroom, the district court denied Breitenbach's motion for a
number of reasons. In terms of the additional DNA testing, the court found that Breitenbach had
not provided any legal foundation f* 151 for retesting the existing DNA analyses and that the
decision to test—or not test—additional samples could be a tactical decision to limit or forgo

investigation rather than deficient performance.
Regarding Smartt's statement that he believed Breitenbach was guiity, the district court
acknowledged that an irreconcilable conflict could exist if the attorney's belief in the defendant's
guilt prevents them from utilizing potentially relevant evidence and/or truthful defense evidence.
But honest opinions did not necessarily mean that the lawyer could not lawfully, ethically, and
aggressively pursue theories of defense and zealously represent the client. Based on what the
district court had seen of Smartt's actions, it found no basis for any conflict of interest,
irreconcilable conflict, or complete breakdown of communication.
Upon denial of the motion, Breitenbach requested a stay of proceedings because he intended to
proceed pro se, a decision he felt the district court had forced upon him. The district court went
over the standard self-representation advisories with Breitenbach and expressed its opinion that
this was a very bad idea. Breitenbach was given time to think the decision over, f*161but at the
next hearing he expressed that'while he did not want to waive his right to representation, neither
did he want Smartt to represent him; he ultimately decided to proceed pro se.
At that same hearing, Breitenbach requested standby counsel so he might have "some help." The
district court denied that request Breitenbach renewed his request for standby counsel in another
pro se motion and at a subsequent hearing in March. At that hearing, Breitenbach argued his own
ignorance could place a burden on the district court or might cause delays, in the proceedings,
which might all be alleviated by the appointment of standby counsel.
The district court acknowledged this was a discretionary decision which it frequently faced—and
struggled with—because it could make the court’s job easier and there are often good arguments
for appointing standby counsel. But it found that ultimately, there was nothing that would make
standby counsel especially.beneficial in this case and that Breitenbach was really requesting
someone to act as cocounsel, it could find no basis in law which compelled it to appoint standby
counsel.
Breitenbach also filed a motion for "expert services in accordance with K.S.A. 22-4508.".[*17]
At the hearing on that motion, the court cleared the courtroom of everyone except court staff, the
sheriffs deputy, the court guards, and Breitenbach, so they could discuss Brcitenbach's arguments
for independent DNA testing.
Breitenbach told the court he had found a string of emails'from Geering that indicated there was
a technical problem with the computer software used to upload information, but he was unable to
explain the specifics other than,to say it caused a delay in the processing but was ultimately
corrected. The court discussed the difference between alleging some flaw in the testing versus
just being skeptical of the turnaround when a job is given priority. When asked if there were any
other specific issues or flaws which Breitenbach felt needed to be pursued by the defense for a
fair trial with regard to the DNA testing, Breitenbach said that because they tested the two best
samples they had and one was inconclusive, there might have been some human error. But he
also acknowledged he did not have any evidence to support that accusation and agreed with the
court that it was a fishing expedition.
After the State was brought back into the courtroom, the district court expressed_£U!Lit would
have to find a basis for questioning the reliability or accuracy of the State's DNA evidence in this
case and it would not make the decision based on timing. Breitenbach clarified this time that he

was not trying to get any samples retested, but he would like the untested swabs to undergo DNA
analysis because he hoped for exculpatory evidence. In total, Breitenbach was requesting testing
for three untested swabs from L.A.'s sexual assault exam, the potential semen stain on the couch,
and biological material from the bedding where L.A. was found. The district court asked
Breitenbach to be more specific with what testing he wanted done and the cost it would require,
but Breitenbach struggled due to his lack of knowledge in the area. He eventually settled on a
request of around $6,500 for testing with a projected timeline of 10 weeks to completion. Later in
the same hearing, Breitenbach clarified that he had no idea DNA could be retested but "of
course" he would want the other two samples retested.
The district court explained that this was a legal issue with courts on both sides of whether a
defendant has a right to an expert witness and DNA testing because the State has one, f* 191 The
district court was persuaded by the fact that the State's DNA evidence was not tested by a private
lab hired by a party in a civil case, but rather was conducted by a public, independent lab that—
while it may Have a close relationship with the district attorney because they work together all the
time—could provide exculpatory or inculpatory information depending on the case. The district
court provided a written order denying the motion, and the case proceeded to trial.
The jury found Breitenbach guilty of all charges. Prior to sentencing, Breitenbach filed a pro se
Motion For A New Trial Pursuant to K.S.A. 60-259. alleging that the district court’s denial of
counsel, the denial of a DNA expert, the admission of prejudicial phone call evidence, and the
withholding of exculpatory fingerprint analysis by the State all resulted in the denial of his due
process rights. The court denied the request for new trial. Breitenbach was sentenced to life with
the possibility of parole after 592 months for the attempted capital murder conviction, life
without the possibility of parole for the aggravated criminal sodomy conviction, and 172 months'
imprisonment for the aggravated burglary conviction with each 1*201 of the sentences to be
served consecutively. Breitenbach appealed to this court. We will review his appellate issues in
turn.

Analysis
I. Did the district court err in denying Breitenbach's request for independent DNA testing?
Breitenbach first argues that the district court erred in denying his request for additional DNA
testing under K.S.A. 22-4508 and that the error constituted an abuse of discretion when the judge
relied on incorrect law, made incorrect statements of fact, and ruled unreasonably.

Standard of review
\1 "The authorization of expert services in a criminal trial of an indigent defendant lies within the
discretion of the district court. The decision will not be disturbed unless the defendant shows
abuse of the trial court's discretion wh ich results in prejudice to his substantial rights. State v.
Owens. 248 Kan. 273. 282. 807 P.2d 101 (19911.
\1 '"'A district court abuses its discretion when (1) no reasonable person would have taken the

view adopted by the district court; (2) the judicial action is based on an error of law; or (3) the
judicial action is based on an error of fact." Slate v. Thomas. 307 Kan, 733,739, 415 P,3d 430
(2018V

Discussion

c

When a criminal defendant wants expert services but cannot afford to retain them, he must ask
the court to order the government to pay for the services. In this 1*211 case, that motion was first
filed by Breitenbach while he was self-represented, and not while he was represented by a public
defender. For reasons that will be discussed, that is significant to the analysis. Breitenbach asked
the court for expert services in the form of DNA testing.
When considering whether to grant a self-represented defendant's request for an expert, the court
considers K.S.A, 22-4508. which reads in relevant part:
"An attorney other than a public defender who acts as counsel for a defendant who is
financially unable to obtain ... expert. .. services necessary to an adequate defense in
the defendant's case may request them in an ex parte application addressed to the district
court where the action is pending. Upon finding, after appropriate inquiry in the ex parte
proceeding, that the services are necessary and that the defendant is financially unable to
obtain them, the district court shall authorize counsel to obtain the services on behalf of
the defendant."
\1 "Here, the "attorney other than a public defender" is Breitenbach himself, acting pro se. The
statute provides a simple two-part test. The district court must first determine that the defendant
is financially unable to pay 1*221 for the services, and then find that the requested services are
necessary to an adequate defense. If both these requirements are met, the district court shall
authorize the services. Landrum v. Goerine. 306 Kan. 867. 874. 397 P.3d 1181 (2017).

The two-part test—indigency and necessity

c

Clearly, Breitenbach satisfies the first prong of the test. He is indigent. The district court had
found him so and appointed the public defender to represent him before the expert request was
made. Though Breitenbach rejected the appointment of counsel in favor of self-representation,
that election to proceed pro se did not affect his status as an indigent defendant.

\l "Fundamental f*231 fairness does not require the court to furnish the defendant with equal
amounts of funds and services as are within the reach of the State. Lee. 221 Kan, at 114. In Lee,
as in this case, the defendant was denied a DNA expert. \1 "The court found no abuse of
discretion for the court's refusal to order such expert, implicitly approving a standard which
found reversal for denial of expert services is only warranted where a defendant has established
prejudice by clear and convincing evidence. Lee. 221 Kan, at 115 (citing Mason v. Arizona. 304
I:.2d 1345 19th Cir. 19741 [as applied to investigative services]).
\l "In the case before us, the State offers legal authority from the 10th Circuit which it suggests is
useful in shedding light on how courts ensure fundamental fairness as discussed in Lee and
Dunn. In particular, the 10th Circuit has "repeatedly emphasized that defendants must provide the
district court with explicit detail showing why the requested services are 'necessary1 to an
adequate defense and what the defendant expected to find by using the services." United States v
Gonzales. 150 F.3d 1246. 1252 n.4 (IQlli Cir. 1998V The 10th Circuit also establishes that the
standard for being "necessary" means that the requested services must be more than merely
"helpful." United States v. Kennedy. 64 F.3d 1465. 1470 (10th Cir. 1995V
\1 "Breitenbach argues this court should reverse its holding in Dunn and Lee 1*241 and find there
is a constitutional right to defense experts in general—and specifically to DNA experts—by
expanding and adopting the holding of the United States Supreme Court in Ake v. Oklahoma.
470 U.S. 68. IQS S. Ct. 1087. 84 L. Ed. 2d 53 (1985V Ake acknowledged:
\l ""This Court has long recognized that when a State brings its judicial power to bear on
an indigent defendant in a criminal proceeding, it must take steps to assure that the
defendant has a fair opportunity to present his defense. This elementary principle,
grounded in significant part on the Fourteenth Amendment's due process guarantee of
fundamental fairness, derives from the belief that justice cannot be equal where, simply as
a result of his poverty, a defendant is denied the opportunity to participate meaningfully
in a judicial proceeding in which his liberty is at stake." 470 U.S. at 76.
Ake dealt with a capital crime. \1 "The defendant lodged an insanity defense and asserted the right
to a psychiatric expert. The Supreme Court held that due process requires the appointment of
defense experts when a defendant has made a preliminary showing that his or her sanity at the
time of the offense is likely to be a significant factor at trial. Ake. 470 U.S. at 74. Breitenbach
acknowledges that Kansas has not adopted Ake as applying to nonpsvchiatric 1*251 services but
argues that many jurisdictions have.

The issue turns, then, on whether Breitenbach can establish that a DNA expert was necessary for
his adequate defense. To arrive at the answer, we analyze what the law means in this context.

\1 "This court declines to expand Ake to a DNA expert evaluation. Psychiatry and DNA
evaluation involve very different analyses. Identification of DNA, as in identification of a
fingerprint, requires a specific scientific procedure. \1 "Even acknowledging there can be error in
DNA analysis and that it is not infallible, the process is, at its base, more objective.

Kansas precedent directly on point for this issue is scarce. \l "However, this court previously held
that K.S.A. 22-4508 is comparable to the federal provisions of 18 U.S C. 8 3006A(cl and found
there is no general constitutional requirement for experts. Rather, this court approved federal
findings which hold 'that requests for the appointment of experts are to be measured by the
requirements of the due process test of fundamental fairness. State v. Dunn. 243 Kan. 414. 419.
758 P.2d 718 (1988V State v. Lee. 221 Kan 109. 113-14. 558 P.2d 1096(19761.

\1 ""Psychiatry is not... an exact science, and psychiatrists disagree widely and
frequently on what constitutes mental illness, on the appropriate diagnosis to be attached
to given behavior andsymptoms, on cure and treatment, and on likelihood of future
dangerousness. Perhaps because there often is no single, accurate psychiatric conclusion
on legal insanity in a given case, juries remain the primary factfinders on this issue;:and
they must resolve differences in opinion within the psychiatric profession on the basis of

the evidence offered by each party." Ake. 470 U.S. at 81-82.
\1 "Breitenbach asserts the district court's standard was too strict, arguing the court unnecessarily
required a showing that the State's DNA evidence was unreliable or inaccurate before it would
authorize DNA testing, citing State v. Snodgrass. 252 Kan, 253, 843 P,2d 720 (1992). and ,[*26]
State v. Reynolds 230 Kan. 532. 639 P 2d 461 119821. But this mischaracterizes the district
court's reasoning in denying the motion, which is demonstrated by the Written ruling contained in
the record.
\l "Ir. that ruling, the district court identifies a thorough understanding of the applicable law. It
references the controlling statute quoted above and identifies that Breitenbach must show the
testing is necessary for an adequate defense. The district court correctly identifies that while
' some courts rely in part on Ake to support the idea that a defendant has the right to obtain public
funding with little more than a request, Ake did not create a universal rule that an indigent
defendant is entitled to an expert for every scientific procedure. The district court also correctly
identifies that Kansas is one of the jurisdictions that requires the defendant to make more than
just a request and relies on Snodgrass and Reynolds to show Breitenbach must make a specific
showing of need for the expert, i.e. that it is necessary to an adequate defense.
When the district court said Breitenbach did not set forth any valid basis to question the
reliability or accuracy of the State's DNA, it was specifically referring to Breitenbach's request to
retest f*271 the two samples already processed by the State. In other words, the district court was
asking for a reason why the retests were necessary. It addressed new testing separately and noted
that it had previously heard evidence independent of the DNA testing including Breitenbach's
statements to his mother and grandmother that he hurt the girl; L.A.'s identification of
Breitenbach as her attacker in a photo lineup; evidence of L.A.'s blood on Breitenbach's shoe;
and evidence that Breitenbach was in close proximity to the scene of the crimes. Further,
Breitenbach failed to articulate any reason testing of new materials was necessary, considering
evidence of bodily .fluids from other contributors found on a victim or at the scene does nothing
to negate the fact that a particular individual's DNA is found inside that victim, as was
Breitenbach's.
The district court concluded, based on the correct legal standard, that Breitenbach did not have an
absolute right to independent testing on mere request but that he must make a specific showing of
need. The district court, with all the facts, was unable to find that the request was anything more
than a fishing expedition—a conclusion with which Breitenbach 1*281 agreed Breitenbach fails
to show that the district court abused its discretion by applying an incorrect legal standard.
In his reply brief, Breitenbach expands on his argument that he was prejudiced but also states that
his defense was never that the crime did not occur but that he was misidentified as the assailant
mostly because of the DNA testing. Aside from ignoring all the non-DNA incriminating
evidence, this also ignores that the DNA was tested against—and did not match—the DNA of
L.A.'s father, a man alluded by Breitenbach to be im alternative suspect.
Breitenbach continues with unsupported arguments that he satisfies every test of prejudice
discussed in the briefs largely because he identified "flaws" in the Science Center's testing and
because of the "proffer" that the DNA evidence was "simply wrong."
As far as the former, the "flaws” amounted to (1) the testing was "rushed," which the district

court determined meant the job was given priority, not that the actual testing was done any faster
than normal; (2) the fact that Geering, the State's DNA expert, encountered technical issues,
which the district court and Breitenbach agreed had been resolved without issue to the testing: f*
291 and (3) that the DNA swabs were taken by an experienced OB/GYN instead of by a
registered SANE/SART nurse, though the nurse was with the OB/GYN as she took the swabs.
Finally, Breitenbach concludes that it is sufficient simply to claim the test results were wrong and
that more testing would show DNA from others. This assertion is unsupported and is, in fact,
contradicted by Breitenbach at trial when he candidly agreed additional testing would be a fishing
expedition.

The district court did not make mistakes of law or fact or otherwise abuse its discretion.
Next, Breitenbach argues that the district court abused its discretion by making two factual
conclusions that were not supported by the evidence. First, by "treating the Science Center as an
'independent' laboratory" and second, by indicating "Breitenbach had not set forth what an
independent expert was expected to do on his behalf."
With regard to the district court treating the Science Center as an independent or public
laboratory, it is clear from the record that the district court was trying to make the distinction
between the DNA testing in a civil case, where a laboratory may be hired to make a specific
finding, versus the situation 1*301 here, where the Science Center was not hired specifically to
provide evidence that Breitenbach was guilty. Rather, it was merely,serving in its role as an
independent, public agency to provide identification of the collected DNA and link it to any
possible suspects.
When Breitenbach requested "independent" testing he was requesting testing done by a
laboratory with no connection to the State. He now argues the district court somehow made the
assumption that the Science Center fits that criterion. However, the district court itself
acknowledged that the Science Center has a close relationship with the district attorney because it
works with the district attorney all the time, but that it is independent in the sense that it could
provide exculpatory or inculpatory information and is not biased against any particular
defendants.
Breitenbach also argues that the district court relied on an incorrect fact because its written order
indicates that Breitenbach had not explained what an independent expert was expected to do in
his behalf. Actually, the written order refers to Breitenbach's written motion, indicating the
motion did not contain that information, which is accurate. It is obvious 1*311 the requested
expert was to test DNA, and there is no indication the court thought otherwise. Breitenbach fails
to demonstrate the district court abused its discretion by relying on incorrect facts.
\l "The last avenue for Breitenbach to show an abuse of discretion is to show that the district
court's actions were arbitrary, fanciful, or unreasonable, i.e. if no reasonable individual would
have taken the view adopted by the trial court. State v. Ward. 292 Kan. 541. Svl. H 3. 2S6 P.3d
801 (20111. Breitenbach makes many of the same arguments addressed above under the prejudice
analysis to argue that the district court’s ruling was unreasonable. Specifically, he asserts the
testing was rushed, there were technical issues, and the samples were taken by an OB/GYN

instead of a SANE/SART nurse. As explained above, the district court reasonably addressed each
of those concerns. Breitenbach cannot show that the district court abused its discretion by coming
to an unreasonable result.

forgo additional DNA testing. He uses that fact to allege that Smartt was failing to investigate
defenses, that he was limiting his representation, and even that he had presented a conflict by
stating the funds would not be available for Breitenbach's desired testing.

II. Did the district court err in-denying Breitenbach's request for new appointed counsel?

\l "While counsel does have a duty to make reasonable investigations, that duty can also be met
by making a reasonable decision that particular investigations are unnecessary. A decision not to
investigate must be directly assessed for reasonableness 1*341 in all the circumstances, but a
heavy measure of deference is applied to counsel's judgments. State v. Hedges. 269 Kan. 895.
914-15. 8 P.3d 1259120001.

Breitenbach next argues that he established justifiable dissatisfaction which required the
appointment of new counsel. This was based on his belief that his counsel was not investigating
1*321 his defenses or requesting DNA testing, his counsel's belief that he was guilty, and a
conflict that arose because his counsel wanted to preserve the office's defense budget.
Breitenbach contendsthat denial of his motion was an abuse of discretion that requires reversal
of the conviction's and remand for-riew trial with new defense'counsel appointed.

Standard of review
\1 "A district court's refusal to appoint new counsel is reviewed under an abuse of discretion
standard, which asks whether any reasonable individual would take the view adopted by the
district court. State v. McGee. 280 Kan. 890. 894. 126 P.3d 111012006). The defendant bears the
burden of establishing an abuse of discretion. \1 "State v. llulett 293 Kail,312.-319.263 P.3d
1531201n.

Discussion
\! "While both our state and federal Constitutions guarantee the right of criminal defendants to
have the effective assistance of counsel, they do not guarantee the defendant the right to choose
which attorney will be appointed to represent him or her. State v. Brown. 300 Kan. 565, 574-75,
331 P.3d 797(2014).
.
\1 ""[T]o warrant substitute counsel, a defendant must show 'justifiable dissatisfaction'.
with appointed counsel. Justifiable dissatisfaction includes a showing of a conflict of
s'interest, an irreconcilable conflict, or a complete breakdown in communications between
i
counsel and the defendant. \1 "But ultimately. 1*331 "Tals long as the trial court has a
'
reasonable basis for believing the attorney-client relation has not deteriorated to a point
where appointed counsel can no longer give effective aid in the fair presentation of a '
defense, the court is justified in refusing to appoint new counsel."' [Citations omitted.]"
State v. SaDDineton. 285 Kan. 158. 166. 169 P.3d 1096 (2007).
\I "Further, when the defendant’s dissatisfaction emanates from a complaint that cannot be
remedied or resolved by the appointment of new counsel—such that replacement counsel would
encounter the same conflict or dilemma—the defendant has not shown the requisite justifiable
dissatisfaction. Statev. Smith. 291 Kan. 751. 755. 247 P.3d 676 (Soil).
The common theme throughout Breitenbach’s complaints on this issue is Smartt's decision to

It is clear from the record that the trial court took great care in considering both of Breitenbach's
motions for replacement counsel. Each time, the district court held a hearing to consider
Breitenbach's motion for new counsel. At each.hearing, the court heard all of Breitenbach's
complaints and conducted a thorough assessment of Smartt's conduct and the attomey/client
relationship held by Smartt and Breitenbach.
Breitenbach's strongest argument is that the court erred when it depicted Smartfs-failure to
request additional DNA testing as a tactical decision, which is supported-by the fact that
Smartt—when given the opportunity—added nothing to the dialogue. Breitenbach argues that
Smartt's silence means the district court's determination-was-not supported by law or evidence
and that Smartt did not establish that he was forgoing independent DNA testing as a matter of
tactics, strategy, or anything else. Essentially, he asserts the district-court could not label Smartt's
decision as strategic when Smartt had not established any strategic reason to forgo testing.
\l "Much of Breitenbach's legal 1*351 authority is drawn from LaPointe v. State. 42 Kan. Aon. 2d
S22. 545.214 P,3d 684 (20091 (holding, in part, that "any determination that defense counsel’s
actions were a part of his trial strategy would be pure speculation without defense counsel's
testimony"). The glaring error here is that LaPointe concerns the need to hold an evidentiary
hearing to rule on a postscntencing K.S.A. 60-1507 motion. In that context, the LaPointe panel
was correct. Where there was no evidentiary hearing the record was never developed factually as
to the basis for counsel's conduct.
Here, however, we are not considering a K.S.A. 60-1507 motion. More importantly* the district
court took great pains to conduct a hearing and establish a foundation on the record by making an
assessment of Smartt's action's and Breitenbach's complaints under the circumstances.
The district court took care to listen to Breitenbach's grievances and discuss with him the legal
standards under which the court was required to work. After hearing Breitenbach's complaints—
again, largely centered on Smartt's refusal to obtain additional DNA testing—the district court
found that under the circumstances of the case it could find no compelling reason why the request
for additional DNA testing was more than a fishing expedition. [*361 It went on to discuss
Kansas caselaw that held trial counsel's failure to.retest evidence could be a reasonable tactical
decision. It even listed a few ways it might be beneficial to adefendant not to have additional
testing. Finally,
"[T]he Kansas appellate court said that independently testing of DNA is a tactical
decision and failure to do so is not a deficient one.
"And of course every case relies somewhat on the facts, but in this situation I don't see

anything that causes me, as this case specifically, to hold anything different. And
therefore, 1 don't think it would be in this Court's purview to direct any testing be done
and I do not find as a matter of law that it is a basis for any kind of a determination at this
point of some sort'of ineffectiveness or a basis for the Court to remove Mr. Smartt either
as a irreconcilable conflict."
After a discussion of the LaPointe case now cited by Breitenbach, the trial court concluded that
the disagreement about DNA testing did not establish any justifiable dissatisfaction. While the
district court then addressed the conflict issue and the statement that Smartt believed Breitenbach
was guilty, it eventually concluded the hearing by reiterating f*371 that for many reasons, it had
found no irreconcilable conflict, complete breakdown of communication, or any conflict of
interest that necessitated removing Smartt as counsel. At the end .of the hearing, the court
specifically asked, "Anything else for the record, Mr. Smartt, on that issue?" to which Smartt
responded, "No, Judge."
Breitenbach is correct that Smartt did not add to the dialogue. And perhaps that would have been
helpful. But read in context, Smartt is agreeing to the foundation that the court had already laid. It
is clear he did not disagree with the trial court.
\l "Breitenbach also argues in this appeal that he established justifiable dissatisfaction by raising
his concern that Smartt’s belief in his guilt was limiting his representation. He uses State v.
Smith. 291 Kan. 751.247 P.3d676 f20in. to support this claim. Smith centered on a defense
attorney's reluctance to admit factual' true information after he viewed a videotape which
convinced him of his cl ient’s guilt. \l "The Smith court ultimately found that if a conflict arises
from counsel’s refusal.to introduce truthful, relevant evidence because they believe their.client is
guilty, newly appointed counsel can be necessary. Smith. 291 Kan, at 758.
\1 "This is not the same situation. Whatever his 1*381 own opinions were, there is no indication
that Smartt was withholding evidence out of a belief that Breitenbach was guilty.' \1 "Smith does
not stand for the notion that a defense attorney can only represent clients he believes are
innocent, but rather that the defense attorney cannot step into the role of fact-finder. As both the
State and the district court noted, Smartt was actively engaged in Breitenbach's case and was
competently conducting a constitutionally adequate defense.
Breitenbach's last avenue to show the district court erred in denying his request for new counsel
is his brief argument that a conflict existed because Smartt was concerned with saving money
from the indigent defense, budget to the detriment of Breitenbach's case. Citing to the Kansas
Rule of Professional Conduct 1,7 (2020 Kan. S. Ct. R. 306), Breitenbach notes that an attorney
may not represent a client when there is "substantial risk that the representation of one or more
clients will be materially limited by the lawyer's responsibilities to another client." Breitenbach
argues that because the public defender's office has limited access to funding for experts, it
creates a conflict over which clients will get funding.
The district court did not find f*391 any weight behind Breitenbach's claims and did not accept
them as fact. While Smartt's statements about limited funding may have been inartful, they
support the proposition that having a public defender does not entitle Breitenbach to an open
checkbook, and additional DNA testing would not, in counsel's judgment, benefit his defense. In
any case, this argument fails because we have already determined that the decision to forgo

testing was reasonable.
Breitenbach fails to show that the district court erred in denying his request for new counsel.

III. Did the district court err in denying Breitenbach's request for standby counsel?
Similar to the second issue, Breitenbach next argues that the district court abused its discretion
by denying Breitenbach's request for standby counsel both because it failed to recognize that
appointment of standby counsel was discretionary and because it was unreasonable to deny the
motion.

Standard of review
\l "The appointment of standby counsel for pro se litigants rests within the sound discretion of the
trial court. State v. Matzke. 236 Kan, 833. 837. 696 P.2d 396 < 19851. As Breitenbach
acknowledges, Kansas caselaw provides little guidance for the appointment of standby counsel
other than it being a matter of complete f*401 discretion. \1 "The discretion is so broad that
federal authority has even noted that a state may appoint standby counsel over the pro se
defendant's objection. Faretta v. California. 422 U S. 806. 834 n.46. 95 S. Ct. 2525. 45 L. Ed. 2d
562(19751.

Discussion
\1 "Breitenbach argues that the district court abused its discretion because of a statement it made
that there was no "basis in law" for it to grant his motion. He argues this shows that the district
court did not understand it had complete discretion in the matter. "One way in which a defendant
can demonstrate the existence of an abuse of discretion is to show that the district court failed to
exercise its discretion, either because it refused to do so or because it failed to discern that it was
being called upon to exercise discretion." State v. Stewart. 306 Kan. 237. 262. 393 P.3d 1031
(20171.
Breitenbach's argument does not take the district court's full statement into account. The issue is
easily resolved when looking at the district court's statements in the record:
"Well, I have a continuing and probably always will for the rest of my career...
struggled with this issue. We struggle with it in this jurisdiction. Jurisdictions throughout
the country struggle with it. Ultimately as the law currently stands it is the decision within
the discretion of the Court... Stand-bv 1*411 counsel can-be appointed to assist the
defendant and/or the Court at the court's discretion.
"A number of the [arguments for standby counsel] that Mr. Breitenbach has brought up
here today are specifically set forth in the warnings that are given when somebody
decides to represent themselves as part of what we call the Lowe factors....

"I recognize the position it puts an attorney in to be actual standby counsel, which is
generally to sit behind somewhere in the courtroom, watch the proceedings, deal with the
defendant at the defendant's request or at the request of the Court. It does, frankly,
probably makes the Court's job quite a bit easier. And so there are certainly some
significantly good arguments for stand-by counsel in felony cases or in all cases. ;.. [B]ut
there is nothing specific here that compels me to believe that stand-by counsel would be
especially beneficial in this situation.

G

"Again, partly because I think what Mr. Breitenbach is really asking for is co-counsel and
there is — I can perceive at some point that appellate courts are going to move on this
issue one way or the other, but they haven't. It is still completely left to the discretion of
the trial court T*421 and based upon the arguments that were made by Mr. Breitenbach,
the request, the Court's understanding of the law, I do not find there is a basis in law for
the Court to grant the motion for stand-by counsel, soTH deny that motion." (Emphases
added.)
When taken in context, it is clear the district court meant there was no "basis in law" which
compelled it to grant his motion for standby counsel and the court explicitly, repeatedly
recognized it had discretion in the matter.
Breitenbach also argues on this issue that the district court abused its discretion by coming to an
unreasonable ruling. In Breitenbach's eyes, the district court noted only benefit from the
appointment of standby counsel and thus to refuse it when there is no downside is unreasonable.
But this ignores the district court's acknowledgment of the awkwardness of standby counsel's
position and the uncertainty that courts face with this issue. The court reasoned that Breitenbach
was looking more for cocounsel and that standby counsel, in its discretion, would not be
especially helpful. Breitenbach fails to show that the district court erred in denying his request for
standby counsel.
, .

IV. Did the State violate Breitenbach's 1*431 due process rights by failing to disclose exculpatory
evidence of fingerprint testing?
k
\1 "Breitenbach's fourth issue is that the State violated his due process rights under Bradv v.
Maryland. 373 U S. 83. 83 S. Ct. 1194. 10 L. Ed. 2d 215 (1963k by failing to disclose
exculpatory fingerprint testing. Prior to trial, Breitenbach filed a general discovery motion for all
' forensic evidence in the State's possession. As a result of discovery he received, Breitenbach was
aware a fingerprint had been lifted from a patio door at the scene. At trial, during Breitenbach's
cross-examination of a Wichita Police Department CSI, it came to light that it was standard
practice for collected fingerprints to be submitted for testing right away, which had likely been
done for the fingerprint evidence in this case.
The next morning, the State informed the court and Breitenbach that a report had never been
generated on the fingerprint exam, but it had requested one and would share that report with
Breitenbach once it was available. After speaking to law enforcement about the fingerprint, the
State informed the court and Breitenbach that a report was never generated because although the
latent print was initially rated of value, it was searched against the Automated Fingerprint 1*441

Identification System (AFIS) with negative results. Upon the State's request for a report, the lab
pulled the record, took a second look at everything, deemed the latent print as "not of value" for
identification or elimination purposes, and generated a report to that effect. The State received
and delivered the report to Breitenbach during the second day of trial, and Breitenbach
questioned Detective Waite that day about the fingerprint and the report. After that, Breitenbach
requested nothing further concerning the matter.
Breitenbach argues that this sequence of events constitutes a Brady violation requiring a new trial
because his due process rights were violated.

Standard of review
\1 "The district court's determination of a Brady violation is a legal question which is reviewed de
novo with deference to any factual findings. But the district court's denial of the defendant's
motion for new trial is reviewed under an abuse of discretion standard. A district court abuses its
discretion when it applies an incorrect legal standard, misapplies the correct legal standard, or
relies on clearly erroneous findings of fact. State v. Warrior. 294 Kan. 484. .509 277 P 3d 1111
(20121.

Discussion
"Under Brady v. Maryland, prosecutors have a positive duty 1*451 to disclose evidence
favorable to the accused when the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.
"Because law enforcement's knowledge of evidence is imputed to the State, a Brady
violation can occur when the prosecutor withholds material evidence that is not known to
the prosecutor but is known to law enforcement.
"Evidence that is favorable to the accused encompasses both exculpatory and
impeachment evidence. For Brady purposes, there is no distinction between these two
types of evidence that are favorable to the accused; thus, impeachment evidence is
considered exculpatory.
"There are three components or essential elements of a Brady violation claim: (l)The
evidence at issue must be favorable to the accused, either because it is exculpatory, or
because it is impeaching; (2) that evidence must have been suppressed by the State, either
willfully or inadvertently; and (3) the evidence must be material so as to establish
prejudice.
\l '"'Under the test for materiality governing all categories of Brady violations, evidence is
material only if there is a reasonable probability that, had the evidence been disclosed to
f*461 the defense, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome. [Citation
omitted.]" State v. Warrior. 294 Kan. 484. Svl. 1ffl 7-11. 277 P.3d 1111 (2012V

Breitenbach has addressed the three necessary prongs.
For the first prong, Breitenbach must show that the fingerprint analysis was favorable to him. He
makes a brief argument that it is exculpatory because it "indicated he was not the person that
entered or exited through that sliding glass door" and thus he could not be the perpetrator of the
crime. \l "In the context of a prosecutor's obligation to disclose exculpatory evidence, we have
said that evidence is exculpatory if it tends to disprove a fact in issue which is material to guilt or
punishment. And we further acknowledge that evidence may be exculpatory without being
exonerating. Stale v lackey. 295 Kan. 816. 823,286 P.3d 859 (2012).
Breitenbach also argues that the evidence was favorable because he could have used it to
impeach the State's witnesses. The report indicated that upon receipt of the latent print, it was
graded "of value” and two attempts to search AFIS were made with negative results. One attempt
checked the database generally, and one was specific to known prints of Breitenbach. The print
r»471 was reevaluated and deemed not of value for identification or elimination purposes.
Breitenbach argues that the switch from "of value" to "not of value" shows that evidence is only
"critically examined" or is "disregardfed]" when it is inconsistent with the State's theory.
M "It appears the only value to the evidence produced from the fingerprint was the hope that the
fingerprint would prove to belong to someone other than Breitenbach. Then it could possibly be
used by Breitenbach to establish reasonable doubt for the jury. This hope, combined with the
missing report, did have some value for Breitenbach. Because we have found some modicum of
favorable value to the missing evidence, we find that Breitenbach has satisfied the first prong of
\l "Bradv.
\1 "However, even if Breitenbach has met the first prong, he fails on the second prong, which
requires the State to have suppressed evidence either willfully or inadvertently. It is undisputed
here that the one page report was given to Breitenbach during the second day of the three day
trial. BUt "delayed rather than absent disclosure of exculpatory information may or may not
qualify as a Brady violation, depending on whether the defendant can establish f*481 prejudice
due to his or her inability to use the Brady material effectively at trial, as well as an appeal at the
state or federal appellate court in which the issue arises." State v. Hirsh. 310 Kan, 321.336,446
p 3d 472(20191. Breitenbach argues before this court that he was unable to use the evidence, but
the record refutes this assertion.
The problem is not that the evidence could not be used. The problem, if any, is that Breitenbach
just did;not use it. The court even asked Breitenbach if he requested anything further concerning
the fingerprint and the report. Breitenbach responded that he did not Under the second prong, the
evidence was not suppressed, it was just late. And the lateness of the production was explored to
the extent Breitenbach wished to explore it.
\l "Regardless, Breitenbach would still need to show prejudice in order to meet the third prong of
the Bradv test. Before he can do that, Breitenbach must at least establish that the fingerprint
evidence was material to his case.
\| ""[A] showing of materiality does not require demonstration by a preponderance that
disclosure of the suppressed evidence would have resulted ultimately in the defendant's
acquittal... . \1 "[The] touchstone of materiality is a 'reasonable probability1 f*491 of a

different result, and the adjective is important. The question is not whether the defendant
would more likely than not have received a different verdict with the evidence, but
whether in its absence he received a fair trial, understood as a trial resulting in a verdict
worthy of confidence. A 'reasonable probability1 of a different result is accordingly shown
when the government's evidentiary suppression 'undermines confidence in the outcome of
the trial.'fCitations omitted.]" Hirsh. 310 Kan, at 337.
We are not convinced this fingerprint evidence would have had any impact on the trial. \l "It does
not prove that Breitenbach did not enter the apartment, especially in light of the other evidence
placing him there. It simply shows that someone else may have touched the patio door. Despite
the delay in Breitenbach obtaining the fingerprint report, it does not undermine our confidence in
the outcome of the trial, and it does not establish prejudice amounting to a Brady violation.
Breitenbach fails to show that the State violated his due process rights under \1 "Brady.

V. Did cumulative error deprive Breitenbach of his right to a fair trial?
\1 "Having found no errors on appeal, the cumulative error doctrine does not apply, f* 501 State v.
Marshall. 303 Kan. 438. 451. 362 P.3d 587 (20151.
Affirmed.
Beier, J., not participating.
Michael E. Ward, Senior Judge, assigned.l\l"
Footnotes
• i\l"
REPORTER'S NOTE: Senior Judge Ward was appointed to hear case No. 120,503 vice
Justice Beier under the authority vested in the Supreme Court by K.S.A. 20-2616.
• i\l"
REPORTER'S NOTE: Senior Judge Ward was appointed to hear case No. 120,503 vice
Justice Beier under the authority vested in the Supreme Court by K.S.A. 20-2616.

